No. 19-992

In the Supreme Court of the United States
GREG SKIPPER, WARDEN, PETITIONER
V.
CURTIS JEROME BYRD
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT
CERTIFICATE OF COMPLIANCE
Attorney for Petitioner Greg Skipper, Warden, hereby certifies that the foregoing Petition complies with the type-volume limitation of Supreme Court Rule
33.1(g)(iii), in that the word-processing system used to prepare the brief indicates
that the brief contains 2,965 words.
Respectfully submitted,
Dana Nessel
Michigan Attorney General
Fadwa A. Hammoud
Solicitor General
Counsel of Record
P.O. Box 30212
Lansing, Michigan 48909
HammoudF1@michigan.gov
(517) 335-7628
Ann M. Sherman
Deputy Solicitor General
Attorneys for Petitioner

